3fn tlje Supreme Court of tlje ®nttrt States?
Alexander Christian Miles,
Applicant
v.
United States of America
Respondent

Certificate of Compliance

As required under Supreme Court Rule 33.1(h), the undersigned Petitioner
certifies under penalty of perjury that the Petition for a Writ of Certiorari contains
no more than 6,100 words, excluding parts exempted pursuant to Supreme Court
Rule 33.1(d).
Executed March 22, 2021

---Alexander C. Miles, Esq.
Brahegatan 15
Stockholm, Sweden
acmilesesa@gmail.com
Movant and Petitioner

